HHS/OIG, Audit -"Credentialing and Privileging Practices at Muscogee (Creek) Nation,"(A-06-04-00039)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Credentialing and Privileging Practices at Muscogee (Creek) Nation," (A-06-04-00039)
August 26, 2004
Complete Text of Report is available
in PDF format (542 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses credentialing, privileging, and personnel suitability practices at the Creek
Nation Community Hospital (Creek Hospital).  Tribally operated hospitals, including Creek Hospital, are not required
to follow Indian Health Service (IHS) credentialing, privileging, and accreditation requirements.  Although the Creek
Hospital is not required to comply with the Joint Commission on Accreditation of Healthcare Organizations (Joint Commission)
standards, the hospitals bylaws require hospital management to follow a standardized credentialing and privileging process
consistent with Joint Commission standards. The hospital completed credentialing and privileging reviews for all 17 practitioners
in our review, as required by their bylaws.  However, Creek Hospital did not complete personnel suitability reviews
for any of its contract practitioners, as required by the Indian Child Protection and Family Violence Prevention Act of
1990.  Hospital officials told us that they were unaware the Act required tribes or tribal organizations to conduct
personnel suitability reviews through background investigations.  Subsequently, the hospital began to develop procedures
to conduct background investigations on all practitioners.  We recommended that Creek Hospital continue its efforts
to establish written procedures and controls to ensure that background investigations are performed on all medical staff
in accordance with the Indian Child Protection and Family Violence Prevention Act.  Hospital officials agreed with
our recommendation.